No.
IN THE

Supreme Court of tfje ®utteb States?
GAREY NEHRKE,
Petitioner,
v.
WELLS FARGO BANK N.A.,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE FLORIDA FOURTH
DISTRICT COURT OF APPEALS
PETITION FOR CERTIORARI

CERTIFICATE OF SERVICE
I, Garey Nehrke hereby certify that three copies of the Petition for Certiorari
in the above-captioned case were sent by priority mail on this 18th day of 2019 to the
following:
Tricia J. Duthiers

Primary email: service@lgplaw.com
Secondary email: tid@lgplaw.com

Topel, Liebler, Gonzalez & Portuondo
Courthouse Tower 25th Floor
44 West Flagler Street
Miami, FL 33130 305-379-0400 ph
Counsel ofRecordfor Appellee Wells Fargo Bank
James P. Collum

Primary email: ServiceMail@aldridgepite.com
Secondary email: Jcollum@aldridgepite.com

Aldridge Pite, LLP
1615 South Congress Avenue
Suite 200
Delray Beach, FL 33445
1

561-392-6391 ph
561-392-6965 fax
Counsel ofRecordfor Plaintiff Wells Fargo Bank
I further certify that to the best of my knowledge, in accordance with Rule 29
of this Court, all parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.

'Garefy Nehrke
29^y/NW 2nd Ave
Pompano Beach, Florida 33064
954-644-9900
Pro Se Petitioner

2

